      Department of Homeland Security




      Information Technology Management Letter for the
           FY 2012 Department of Homeland Security
                    Financial Statement Audit




OIG-13-58                                       April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


 
                                       April 4, 2013 
 
 
MEMORANDUM FOR:	             Richard Spires 
                             Chief Information Officer 
 
                             Peggy Sherry 
                             Chief Financial Officer 
 
FROM:	                       Frank Deffer 
                             Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:	                    Information Technology Management Letter for the FY 
                             2012 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your action is our final report, Information Technology Management Letter 
for the FY 2012 Department of Homeland Security Financial Statement Audit.  The 
independent accounting firm KPMG LLP (KPMG) performed the audit of Department of 
Homeland Security (DHS) financial statements as of September 30, 2012, and prepared 
this information technology (IT) management letter.   
 
KPMG is responsible for the attached IT management letter dated December 20, 2012, 
and the conclusion expressed in it.  We do not express an opinion on DHS’ financial 
statements or internal controls or conclusions on compliance with laws and regulations.  
The DHS management concurred with all recommendations. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination.   
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
                               
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




April 2, 2013

Acting Inspector General
U.S. Department of Homeland Security

Chief Information Officer and Chief Financial Officer
U.S. Department of Homeland Security

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012 and the related statements of net cost, changes in net
position and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to herein as the “fiscal year (FY) 2012 financial statements”). The objective of
our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
FY 2012 financial statements, based on the criteria established in Office of Management and
Budget, Circular No. A-123, Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 14, 2012, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on the DHS’ FY 2012 financial statements and internal control over
financial reporting. In addition, the FY 2012 DHS Secretary’s Assurance Statement states that
the Department was able to provide qualified assurance that internal control over financial
reporting was operating effectively at September 30, 2012.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included financial systems general Information Technology (IT) control
(GITC) deficiencies which we believe contribute to a DHS-level significant deficiency that is
considered a material weakness. IT control deficiencies were identified in areas of access
controls, configuration management, security management, contingency planning, and
segregation of duties. We also noted that in some cases, financial system functionality is
inhibiting DHS’ ability to implement and maintain internal controls, notably IT applications
controls supporting financial data processing and reporting. These matters are described in the
General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the
appropriate members of management, or communicated through a Notice of Finding and
Recommendation (NFR). We aim to use our knowledge of DHS’ organization gained during
our audit engagement to make comments and suggestions that we hope will be useful to you.
We have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided
a description of key DHS financial systems within the scope of the FY 2012 DHS financial
statement audit engagement in Appendix A; a description of each internal control finding in
Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls (comments not related to IT)




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
have been presented in a separate letter to the Office of Inspector General (OIG) and the DHS
Chief Financial Officer (CFO).
We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of the DHS’ management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.


Very truly yours,
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2012

                INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                       TABLE OF CONTENTS

                                                                                            Page

Objective, Scope, and Approach                                                               1

Summary of Findings and Recommendations                                                      2

General IT Control Findings and Recommendations                                              3

   Findings                                                                                  3

       Related to IT Financial Systems Controls                                              3

           Access Controls                                                                   3

           Configuration Management                                                          3

           Security Management                                                               3

           Contingency Planning                                                              4

           Segregation of Duties                                                             4

       Related to Financial System Functionality                                             4

   Recommendations                                                                           5


                                           APPENDICES

Appendix                                          Subject                                   Page

           Description of Key Financial Systems and IT Infrastructure within the Scope of
   A                                                                                         6
           the FY 2012 DHS Financial Statement Audit

   B       FY 2012 Notices of IT Findings and Recommendations at DHS                        15

           Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C                                                                                        28

           to Current Year Notices of Findings and Recommendations at DHS




                      Information Technology Management Letter for the 

              FY 2012 Department of Homeland Security Financial Statement Audit

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

                            OBJECTIVE, SCOPE, AND APPROACH

During our engagement to perform an integrated audit of DHS, we evaluated the design and effectiveness
of general information technology controls (GITCs) of DHS’ financial processing environment and
related IT infrastructure as necessary to support the engagement. The Federal Information System
Controls Audit Manual (FISCAM), issued by the GAO, formed the basis of our audit as it relates to GITC
assessments at DHS.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating GITCs and the IT environment of a Federal agency.
FISCAM defines the following five control functions to be essential to the effective operation of GITCs
and the IT environment.

   Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
   Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.
   Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.
   Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we also performed technical security testing for key network
and system devices at DHS. The technical security testing was performed both over the Internet and from
within select DHS facilities, and focused on test, development, and production devices that directly
support DHS’ financial processing and key general support systems. Limited social engineering and
after-hours physical security testing was also included in the scope of the technical security testing at
certain DHS components.

In addition, we performed testing over selected key application controls to assess the controls that support
DHS financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll. Specific results
of the application controls test work is provided in separate For Official Use Only IT management letters
provided to component management and the OIG.

In recent years, we have noted that the DHS’ financial system functionality may be inhibiting the
agency’s ability to implement and maintain internal controls, notably IT applications controls supporting
financial data processing and reporting at some components. At most components, the financial systems
have not been substantially updated since being inherited from legacy agencies several years ago.
Therefore, in FY 2012, we continued to evaluate and consider the impact of financial system functionality
over financial reporting.


                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 1

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During our FY 2012 assessment of IT general and application controls, we noted that the DHS
components made progress in the remediation of IT findings we reported in FY 2011. As a result, we
closed approximately 68 (47 percent) of our prior year IT findings. However, we identified 103 new
findings, which is a significant increase compared to the 41 new findings in FY 2011. In FY 2012, we
identified approximately 180 total findings, of which approximately 43 percent are repeated from last
year. Approximately 41 percent of our repeat findings were for IT deficiencies that management
represented were corrected during FY 2012. The new findings in FY 2012 resulted primarily from
additional IT systems and business processes within the scope of our audit this year, and were noted at all
DHS components. Customs and Border Protection (CBP) and the Federal Emergency Management
Agency (FEMA) had the greatest number of new findings. We also considered the effects of financial
system functionality when testing internal controls and evaluating findings. Many key DHS financial
systems are not compliant with Federal Financial Management Improvement Act of 1996 (FFMIA) and
OMB Circular Number A-127, Financial Management Systems, as revised. DHS financial system
functionality limitations add substantially to the Department’s challenges of addressing systemic internal
control weaknesses and limit the Department’s ability to leverage IT systems to effectively and efficiently
process and report financial data.

The most significant weaknesses from a financial statement audit perspective continued to include:

    1.	 excessive unauthorized access to key DHS financial applications, resources, and facilities;
    2.	 configuration management controls that are not fully defined, followed, or effective;
    3.	 security management deficiencies in the area of the certification and accreditation process and an
        ineffective program to enforce role-based security training and staff background investigations;
    4.	 contingency planning that lacked current, tested, contingency plans developed to protect DHS
        resources and financial applications; and
    5.	 lack of proper segregation of duties for roles and responsibilities within financial systems.

The conditions supporting our findings collectively limited DHS’ ability to ensure that critical financial
and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted the internal controls over DHS’ financial
reporting and its operation and we consider them to collectively represent a material weakness for DHS
under standards established by the American Institute of Certified Public Accountants (AICPA) and the
GAO. The IT findings were combined into one material weakness regarding IT Controls and Financial
System Functionality for the FY 2012 audit of the DHS consolidated financial statements.




                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 2

                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2012

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

In FY 2012, a number of IT and financial system functionality deficiencies were identified at DHS.
Approximately 180 findings were identified of which approximately 43 percent are repeated from last
year. The primary (circle) bullets listed below each FISCAM heading are a cross-representation of the
nature of IT general control deficiencies identified throughout the Department’s components. The
secondary (dash) bullets represent single or multiple occurrence findings in one or more components.

Findings:

Our findings related to GITCs and financial systems functionality follow:

Related to IT Financial Systems Controls

1. Access Controls:

       Deficiencies in management of application and/or database accounts, network, and remote user
       accounts.
       Ineffective safeguards over logical and physical access to sensitive facilities and resources.
       Lack of generation, review, and analysis of system audit logs and adherence to DHS
       requirements.
       Excessive access of authorized personnel to sensitive areas containing key financial systems, and
       lack of proper enforcement of data center access controls.

2. Configuration Management

       Lack of documented policies and procedures.
       Lack of sufficiently documented script management test plans in accordance with minimum DHS
       requirements.
       Security patch management and configuration deficiencies identified during the vulnerability
       assessment on the platforms supporting the key financial applications and general support
       systems.
       Lack of maintained evidence to support authorized modifications to key financial systems.
       Internal requirements to conduct Functional Configuration Audits and Physical Configuration
       Audits were not followed at one component.

3. Security Management:

       Systems certification and accreditation were not completed and documented.
       IT Security personnel lack mandatory role-based training or compliance was not documented and
       monitored, and computer security awareness training was not monitored.
       Background investigations of Federal employees and contractors employed to operate, manage
       and provide security over IT systems were not being properly conducted, nor consistently tracked
       and monitored.



                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 3

                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2012

4. Contingency Planning:

        Service continuity plans were not tested nor updated to reflect the current environment, and an
        alternate processing site has not been established for high risk systems.
        Authorized access to backup media was not periodically reviewed and updated; at one component
        procedures to periodically test backups was not implemented.

5. Segregation of Duties:

        Lack of evidence to show that least privilege and segregation of duties controls exist, including
        policies and procedures to define conflicting duties and access rights.

These control findings, including other significant deficiencies and criteria are described in greater detail
in separate For Official Use Only letters provided to DHS management.

Related to Financial System Functionality

Coast Guard (some conditions impact the Transportation Security Administration (TSA) as a user of
Coast Guard’s IT accounting systems):

        The core financial system configuration management process relies on an IT script process as a
        solution primarily to compensate for system functionality and data quality issues.
        The component is unable to routinely query its various general ledgers to obtain a complete
        population of financial transactions, and consequently must create many manual custom queries
        that delay financial processing and reporting processes.
        A key financial system is limited in processing overhead cost data and depreciation expenses in
        support of the property, plant and equipment financial statement line item.
        Production versions of financial systems are outdated and do not provide the necessary core
        functional capabilities (e.g., general ledger capabilities).
        The budgetary module of the core financial system is not activated. As a result, key attributes
        (e.g., budget fiscal year) are missing and potential automated budgetary entries (e.g., upward
        adjustments) are not used. This has created the need for various manual workarounds and non-
        standard adjustments (i.e., topsides) to be implemented.
        Financial systems functionality limitations are preventing the Coast Guard from establishing
        automated processes and application controls that would improve accuracy, reliability, and
        facilitate efficient processing of certain financial data such as:
        -   Receipt of goods and services upon delivery. As a result, the Coast Guard records a manual
            estimate of potential receipted goods and services at year end in the general ledger;
        -   Ensuring proper segregation of duties and access rights, such as automating the procurement
            process to ensure that only individuals who have proper contract authority can approve
            transactions or setting system access rights within the fixed asset subsidiary ledger;
        -   Maintaining adequate posting logic transaction codes to ensure that transactions are recorded
            in accordance with generally accepted accounting principles (GAAP); and




                        Information Technology Management Letter for the 

                FY 2012 Department of Homeland Security Financial Statement Audit

                                             Page 4

                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2012

       -   Tracking detailed transactions associated with intragovernmental business and eliminating the
           need for default codes such as Trading Partner Identification Number that cannot be easily
           researched.

Other Department Components:

We noted many cases where financial system functionality is inhibiting DHS’ ability to implement and
maintain internal controls, notably IT application controls supporting financial data processing and
reporting. We noted persistent and pervasive financial system functionality conditions at all of the
significant DHS components in the following general areas:

        Inability of financial systems to process, store, and report financial and performance data to
        facilitate decision making, safeguarding and management of assets, and prepare financial
        statements that comply with GAAP.
        Technical configuration limitations, such as outdated systems that are no longer fully supported
        by the software vendors, impaired DHS’ ability to fully comply with policy in areas such as IT
        security controls, notably password management, audit logging, user profile changes, and the
        restricting of access for off-boarding employees and contractors.
        System capability limitations prevent or restrict the use of applications controls to replace less
        reliable, more costly manual controls. Or in some cases, require additional manual controls to
        compensate for IT security or control weaknesses.

Cause/Effect: DHS management recognizes the need to upgrade its financial systems. Until serious legacy
IT issues are addressed, and updated IT solutions implemented, compensating controls and other complex
manual workarounds must support its IT environment and financial reporting. As a result, DHS’
difficulty in attesting to a strong control environment, to include effective general IT controls and reliance
on key financial systems, will continue.

The conditions supporting our findings collectively limit DHS’ ability to process, store, and report
financial data in a manner to ensure accuracy, confidentiality, integrity, and availability. Some of the
weaknesses may result in material errors in DHS’ financial data that are not detected in a timely manner
through the normal course of business. In addition, because of the presence of IT control and financial
system functionality weaknesses; there is added pressure on mitigating controls to operate effectively.
Because mitigating controls are often more manually focused, there is an increased risk of human error
that could materially affect the financial statements.

Recommendation: We recommend that the DHS Office of the Chief Information Officer (OCIO), in
coordination with the Office of the Chief Financial Officer (OCFO) continue the Financial Systems
Modernization initiative, and make necessary improvements to the Department’s financial management
systems and supporting IT security controls. Specific recommendations are provided in separate For
Official Use Only letters provided to DHS management.

Management Comments: We discussed our report with the DHS CFO and CIO and they have agreed with
the findings and recommendations reported herein.




                        Information Technology Management Letter for the 

                FY 2012 Department of Homeland Security Financial Statement Audit

                                             Page 5

                                                                             Appendix A
                         Department of Homeland Security
                     Information Technology Management Letter
                                September 30, 2012




                                Appendix A
Description of Key Financial Systems and IT Infrastructure within
    the Scope of the FY 2012 DHS Financial Statement Audit




                Information Technology Management Letter for the 

        FY 2012 Department of Homeland Security Financial Statement Audit

                                     Page 6

                                                                                              Appendix A
                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2012

Below is a description of significant financial management systems and supporting IT infrastructure
included in the scope of the DHS FY 2012 financial statement audit.

United States Coast Guard (USCG or Coast Guard)

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for the Coast Guard. CAS is hosted at FINCEN in Virginia (VA). The FINCEN is the Coast Guard’s
primary data center. CAS interfaces with two other systems located at the FINCEN, the Workflow
Imaging Network System (WINS) and the Financial and Procurement Desktop (FPD).

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the
CAS system and is located at the FINCEN in VA.

Workflow Imaging Network System (WINS)

WINS is the document image processing system, which is integrated with an Oracle Developer/2000
relational database. WINS allows electronic data and scanned paper documents to be imaged and
processed for data verification, reconciliation and payment. WINS utilizes MarkView software to scan
documents and to view the images of scanned documents and to render images of electronic data
received. WINS is interconnected with the CAS and FPD systems and is located at the FINCEN in VA.

Joint Uniform Military Pay System (JUMPS)

JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is located
at the Pay and Personnel Center in Kansas.

Direct Access

Direct Access is the system of record and all functionality, data entry, and processing of payroll events is
conducted exclusively in Direct Access. Direct Access is maintained by IBM Application On Demand
(IBM AOD) in the iStructure data center facility in Arizona (AZ) with a hot site located in a Qwest data
center in VA.

Global Pay (Direct Access II)

Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM AOD in the
iStructure data center facility in AZ with a hot site located in a Qwest data center in VA.

Shore Asset Management (SAM)

SAM is hosted at the Coast Guard’s OSC in West Virginia. SAM provides core information about the
USCG shore facility assets and facility engineering. The application tracks activities and assist in the
management of the Civil Engineering Program and the Facility Engineering Program. SAM data


                        Information Technology Management Letter for the 

                FY 2012 Department of Homeland Security Financial Statement Audit

                                             Page 7

                                                                                              Appendix A
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

contributes to the shore facility assets full life cycle program management, facility engineering full life
cycle program management and rationale to adjust the USCG mission needs through planning, budgeting,
and project funding. SAM also provides real property inventory and management of all shore facilities, in
addition to the ability to manage and track the facilities engineering equipment and maintenance of that
equipment.

Naval and Electronics Supply Support System (NESSS)

NESSS is one of four automated information systems that comprise the family of Coast Guard logistics
systems. NESSS is a fully integrated system linking the functions of provisioning and cataloging, unit
configuration, supply and inventory control, procurement, depot-level maintenance and property
accountability, and a full financial general ledger.

Aviation Logistics Management Information System (ALMIS)

ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning, Aircraft &
Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance Management
Information System (AMMIS), a subcomponent of ALMIS, functions as the inventory management/fiscal
accounting component of the ALMIS application. The Aircraft Repair & Supply Center Information
Systems Division in North Carolina hosts the ALMIS application.

CG Treasury Information Executive Repository (CG TIER)

CG TIER is a financial data warehouse containing summarized and consolidated financial data relating
USCG operations. It is one of several supporting applications within CAS Suite designed to support the
core financial services provided by FINCEN. CG TIER provides monthly submissions to DHS
Consolidated TIER.

Integrated Aids to Navigation Information System (IATONIS)

IATONIS is a comprehensive system for managing and reporting on Aids to Navigation and related
navigational matters. IATONIS incorporates the Local Notice to Mariners, which is the USCG’s primary
means for disseminating information concerning changes to aids to navigation, menaces to navigation,
and other timely items of interest to mariners. Additionally, it produces the Light List, the USCG’s
official list of all aids to navigation.

Customs and Border Protection (CBP)

Automated Commercial Environment (ACE)

ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. It is CBP’s plan that this system will replace the Automated Commercial
System (ACS) when ACE is fully implemented. The mission of ACE is to implement a secure,
integrated, government-wide system for the electronic collection, use, and dissemination of international
trade and transportation data essential to Federal agencies. ACE is being deployed in phases, without a
final, full deployment date due to funding setbacks. As ACE is partially implemented now and processes
a significant amount of revenue for CBP, ACE was included in full scope in the FY 2012 financial
statement audit. The ACE system is located in Virginia (VA).

                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 8

                                                                                                Appendix A
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

Automated Commercial System (ACS)

ACS is a collection of mainframe-based business process systems used to track, control, and process
commercial goods and conveyances entering the United States territory, for the purpose of collecting
import duties, fees, and taxes owed to the Federal government. ACS collects duties at ports, collaborates
with financial institutions to process duty and tax payments, provides automated duty filing for trade
clients, and shares information with the Federal Trade Commission on trade violations and illegal
imports. The ACS system was included in full scope in the FY 2012 financial statement audit. The ACS
system is located in VA.

National Data Center – DC Metro Local Area Network (DC Metro LAN)

The DC Metro LAN provides more than 10,000 CBP contractors and employee user’s access to
enterprise-wide applications and systems. The mission of the DC Metro LAN is to the support the
mission of CBP operational elements in the DC Metro LAN region of the organization. These tools
include personal computers, laptop computers, printers and file/print servers which enable CBP officers
and agents to interact with all other applications and systems in the CBP environment. There are 21
major applications supported by the DC Metro LAN, including ACE and ACS. As the DC Metro LAN
included the environment where the ACE, ACS, and SAP applications physically reside, the DC Metro
LAN was included in the FY 2012 financial statement audit. The DC Metro LAN is located in VA.

Systems, Applications, and Products, Enterprise Central Component (SAP ECC)

SAP is a client/server-based financial management system and includes the Funds Management, Budget
Control System, General Ledger, Real Estate, Property, Internal Orders, Sales and Distribution, Special
Purpose Ledger, and Accounts Payable modules. These modules are used by CBP to manage assets (e.g.,
budget, logistics, procurement, and related policy), revenue (e.g., accounting and commercial operations:
trade, tariff, and law enforcement), and to provide information for strategic decision making. The SAP
ECC financial management system was included in full scope in the FY 2012 financial statement audit.
The SAP ECC system is located in VA.

Federal Law Enforcement and Training Center (FLETC)

Financial Accounting and Budgeting System (FABS)

The FLETC FABS application is an all-in-one financial processing system. It functions as the
computerized accounting and budgeting system for FLETC. FLETC provides financial management
services to I&A/Ops and hosts a separate Momentum environment, which was developed to mirror the
FLETC Momentum environment. The FABS system exists to provide all of the financial and budgeting
transactions in which FLETC is involved. An application called “Tuxedo,” also resides on a separate
server. The Tuxedo middleware holds 67 executable files. These files are scripts that process daily
information and are not directly accessible by users. The FABS application and servers reside on the
FLETC Local Area Network in a Hybrid physical network topology and are accessible from four sites:
Georgia (GA), Washington DC, New Mexico, and Maryland.

Glynco Administrative Network

The purpose of the Glynco Administrative Network (GAN) is to provide access to IT network
applications and services to include voice to authorized FLETC personnel, contractors and partner
organizations located at the Georgia facility. It provides authorized users access to email, internet

                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 9

                                                                                              Appendix A
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

services, required applications such as Financial Management Systems, Procurement systems, Property
management systems, Video conference, and other network services and shared resources. The GAN is
located in GA.

Federal Emergency Management Agency (FEMA)

Integrated Financial Management Information System – Merger (IFMIS-Merger)

IFMIS-Merger is the official accounting system of FEMA and maintains all financial data for internal and
external reporting. IFMIS-Merger is comprised of five subsystems: Funding, Cost Posting,
Disbursements, Accounts Receivable, and General Ledger. The application is a commercial off-the-shelf
software package developed and maintained by Digital Systems Group Incorporated. IFMIS-Merger
interfaces with PARS, ProTrac, Smartlink (Department of Health and Human Services [HHS]), Treasury
Information Executive Repository (Department of the Treasury), Secure Payment System (Department of
the Treasury), Grants Management System (Department of Justice), United States Coast Guard Credit
Card System, Credit Card Transaction Management System (CCTMS), Fire Grants, eGrants, Enterprise
Data Warehouse and Payroll (Department of Agriculture National Finance Center). The IFMIS-Merger
production environment is located in Virginia.

Payment and Reporting System (PARS)

PARS is a standalone web-based application. The PARS database resides on the IFMIS-Merger UNIX
server and is incorporated within the Certification & Accreditation (C&A) boundary for that system.
Through its web interface, PARS collects Standard Form 425 information from grantees and stores the
information in its Oracle 9i database. Automated scheduled jobs are run daily to update and interface
grant and obligation information between PARS and IFMIS-Merger. All payments to grantees are made
through IFMIS-Merger. PARS is located in Virginia.

Non-Disaster Grant Management System (NDGrants)

NDGrants is a web-based system that supports the grants management lifecycle and is used by external
stakeholders and grantees, via a public Web site, to apply for grants and monitor the progress of grant
applications, submit payments, and view related reports, and by the FEMA Program Support Division, via
an internal Web site, for reviewing, approving, and processing grant awards. NDGrants interfaces with
two other systems: FEMA’s internal Integrated Security and Access Control System (ISAAC), used for
user credentialing and role-based access, and the HHS Grants.gov system, used for publishing grant
solicitations and downloading applications. NDGrants is located in Virginia.

Emergency Support (ES)

ES is an internal FEMA application for pre-processing disaster-related financial transactions, including
allocation, commitment, obligation, mission assignment and payment requests from other internal and
external systems. ES serves as the primary interface to IFMIS. It also allows FEMA users to process
disaster housing payments, perform payment recoupment, and conduct other administrative tasks.
In addition to IFMIS, ES has interfaces to several other FEMA systems, including:
        ISAAC (organizational and personnel data and team setup);
        Emergency Coordination (incident and disaster declarations);



                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 10

                                                                                              Appendix A
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

        Enterprise Coordination and Approvals Processing System (commitment and mission assignment
        [obligation] requests);
        Hazard Mitigation Grants Program (allocation and obligation requests);
        Individual Assistance (payment and recoupment requests);
        Public Assistance (PA) (obligation and allocation requests);
        Automated Deployment Database (personnel data);
        Assistance to Firefighters Grants (obligation, invoice and vendor requests);
        Emergency Management Mission Integrated Environment (EMMIE) (obligation requests);
        Mitigation Electronic Grants Management System (obligation requests); and
        CCTMS (expenditure requests).
NDGrants is located in Virginia.

Emergency Management Mission Integrated Environment (EMMIE)

EMMIE is an internal Web-based grants management solution used by FEMA program offices and user
communities directly involved in the grant lifecycle associated with the PA Grant Program and the Fire
Management Assistance Grant Program. It is also designed to interface with other government entities
and grant and sub-grant applicants (e.g., states and localities). EMMIE provides functionality for public
entities and private-non-profit entities to create and submit grant applications and for FEMA users to
review and award applications, generate and review relevant mission critical reports, process
amendments, and conduct close-out activities.
Interfaces exist between the EMMIE system and IFMIS. EMMIE is located in Virginia.

Traverse

Traverse is the general ledger application currently used by the NFIP Bureau and Statistical Agent to
generate the NFIP financial statements. Traverse is a client-server application that runs on the NFIP LAN
Windows server environment located in Maryland. The Traverse client is installed on the desktop
computers of the NFIP Bureau of Financial Statistical Control group members and interfaces with a
Microsoft Structured Query Language database hosted on an internal segment of the NFIP LAN.
Traverse has no known external system interfaces.

Transaction Recording and Reporting Processing (TRRP)

The TRRP application acts as a central repository of all data submitted by the Write Your Own (WYO)
companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the WYO program,
primarily by ensuring the quality of financial data submitted by the WYO companies and DSA to TRRP.
TRRP is a mainframe-based application that runs on the NFIP mainframe logical partition in Connecticut.
TRRP has no known system interfaces.




                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 11

                                                                                              Appendix A
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2012

Immigration and Customs Enforcement (ICE)

Federal Financial Management System (FFMS)

The FFMS is a Chief Financial Officer designated financial system and certified software application that
conforms to OMB Circular A-127 and implements the use of a Standard General Ledger for the
accounting of agency financial transactions. It is used to create and maintain a record of each allocation,
commitment, obligation, travel advance and accounts receivable issued. It is the system of record for the
agency and supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf
financial reporting system. It includes the core system used by accountants, FFMS Desktop that is used
by average users, and a National Finance Center payroll interface. The FFMS mainframe component and
14 servers are hosted at the DHS DC2 facility located in Virginia. FFMS currently interfaces with
Treasury, BMIS Web, and FedTraveler.

ICE Network

The ICE Network, also known as the ADEX E-mail System, is a major application for ICE. The ADEX
servers and infrastructure for the headquarters and National Capital Area are located in Mississippi and
Virginia. ADEX currently interfaces with the Diplomatic Telecommunications Service Program Office
ICENet Infrastructure.

Office of Financial Management (OFM)/Consolidated Component

DHS Treasury Information Executive Repository (DHSTIER)

DHSTIER is the system of record for the DHS consolidated financial statements and is used to track,
process, and perform validation and edit checks against monthly financial data uploaded from each of the
DHS bureaus’ core financial management systems. DHSTIER is administered jointly by the OCFO
Resource Management Transformation Office (RMTO) and the OCFO Office of Financial Management
(OFM) and is hosted on the DHS OneNet at the Stennis Data Center in Mississippi (MS).

Transportation Security Administration (TSA)

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for the United States Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in Virginia (VA) and is
managed by the United States Coast Guard. The FINCEN is the Coast Guard’s primary financial system
data center. CAS interfaces with other systems located at the FINCEN, including Financial and
Procurement Desktop.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the
CAS system and is hosted at the FINCEN in VA and is and managed by the Coast Guard.




                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 12

                                                                                            Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2012

Sunflower

Sunflower is a customized third-party commercial off-the-shelf product used for TSA and Federal Air
Marshal Service property management. Sunflower interacts directly with the Office of Finance Fixed
Assets module in CAS. Additionally, Sunflower is interconnected to the FPD system and is hosted at the
FINCEN in VA and is managed by the Coast Guard.

MarkView

MarkView is imaging and workflow software used to manage invoices in CAS. Each invoice is stored
electronically and associated to a business transaction so that users are able to see the image of the
invoice. MarkView is interconnected with the CAS system and is located at the FINCEN in VA and is
managed by the Coast Guard.

Electronic Time Attendance and Scheduling (eTAS)

eTAS is an automated and standardized labor management solution. The system provides an automated
means to schedule employee work and leave hours, record hours worked / not worked, and provide bi-
weekly time records to TSA’s payroll provider, the National Finance Center. The system automates the
workforce management process to reduce the amount of time, effort, and associated cost required for
entry of data.

United States Citizenship and Immigration Services (USCIS)

CLAIMS 3 Local Area Network (LAN)

CLAIMS 3 LAN provides USCIS with a decentralized, geographically dispersed LAN based mission
support case management system, with participation in the centralized CLAIMS 3 mainframe data
repository. CLAIMS 3 LAN supports the requirements of the Direct Mail Phase I and II, Immigration Act
of 1990 (IMMACT 90) and USCIS forms improvement projects. The CLAIMS 3 LAN is located at the
following service centers and district offices: Nebraska, California, Texas, Vermont, Baltimore District
Office, National Business Center, and Administrative Appeals Office. CLAIMS 3 LAN interfaces with
the following systems:
   Citizenship and Immigration Services Centralized Oracle Repository
   CLAIMS 3 Mainframe
   Integrated Card Production System
   CLAIMS 4

   E-filing
   Benefits Biometric Support System
   Refugee, Asylum, and Parole System
   National File Tracking System
   Integrated Card Production System
   Customer Relationship Interface System
   USCIS Enterprise Service Bus

                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 13

                                                                                             Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2012

CLAIMS 4

The purpose of CLAIMS 4 is to track and manage naturalization applications. Claims 4 is a client/server
application. The central Oracle Database is located in Washington, DC while application servers and
client components are located throughout USCIS service centers and district offices. CLAIMS 4
interfaces with the following systems:
   Central Index System (CIS)
   Reengineered Naturalization Automated Casework System
   CLAIMS 3 LAN and Mainframe
   Refugee, Asylum, and Parole System
   Enterprise Performance Analysis System
   National File Tracking System
   Asylum Pre-Screening System
   USCIS Enterprise Service Bus
   Biometrics Benefits Support System
   Enterprise Citizenship and Immigration Service Centralized Operational Repository
   Customer Relationship Interface System
   FD 258 Enterprise Edition and Mainframe
   Site Profile System

Federal Financial Management System (FFMS)

The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf financial
reporting system. It includes the core system used by accountants, FFMS Desktop that is used by average
users, and a National Finance Center payroll interface. The FFMS mainframe component and 14 servers
are hosted at the DHS DC2 facility located in Virginia. FFMS currently interfaces with Treasury, BMIS
Web, and FedTraveler.

CIS1 Network

The USCIS network, also known as CIS1, is the Active Directory Domain Services Platform used within
the USCIS that contains all of USCIS’s Active Directory and Exchange resources. CIS1 is a part of the
Enterprise Infrastructure Services accreditation boundary and all Active Directory information, including
the Active Directory database itself, is hosted on specified servers called Domain Controllers. These 52
Active Directory Domain Controllers are located throughout the country, with the majority of them being
located in Virginia and Nebraska.




                       Information Technology Management Letter for the 

               FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 14

                                                                           Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2012




                              Appendix B

FY 2012 Notices of IT Findings and Recommendations at DHS





              Information Technology Management Letter for the 

      FY 2012 Department of Homeland Security Financial Statement Audit

                                  Page 15

                                                                                                                                     Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012


                                                  United States Coast Guard
                                                                                                                             New        Repeat
FY 2012 NFR #                                        NFR Title                                     FISCAM Control Area
                                                                                                                             Issue       Issue
 CG-IT-12-01    Lack of Consistent Contractor, Civilian, and Military Account Termination             Access Controls                     X
                Notification Process
 CG-IT-12-02    Civilian Background Investigations                                                  Security Management                   X
 CG-IT-12-03    Contractor Background Investigations                                                Security Management                   X
 CG-IT-12-04    Inappropriate Access to JUMPS SMF Audit Logs                                          Access Controls         X
 CG-IT-12-05    Direct Access & Direct Access II Audit Logging                                        Access Controls                     X
 CG-IT-12-06    OSC Data Center Visitor Access Logs                                                   Access Controls                     X
 CG-IT-12-07    Physical Configuration Audits of NESSS System Changes                             Configuration Management    X
 CG-IT-12-08    Direct Access and Direct Access II PeopleSoft System Administrator and Security       Access Controls         X
                Administrator Accounts
 CG-IT-12-09    Security Awareness Issues Identified During Social Engineering Testing at             Access Controls                     X
                Surface Forces Logistics Center
 CG-IT-12-10    Security Awareness Issues Associated with Physical Protection of Sensitive            Access Controls                     X
                Information
 CG-IT-12-11    Weaknesses related to IA Professionals’ Required Certifications                     Security Management                   X
 CG-IT-12-12    Naval & Electronics Supply System User Access                                         Access Controls                     X
 CG-IT-12-13    AMMIS Software Change Requests Process                                            Configuration Management                X
 CG-IT-12-14    Configuration Management Controls over the Scripting Process                      Configuration Management                X
 CG-IT-12-15    Direct Access User Account Recertification                                            Access Controls                     X
 CG-IT-12-16    Access and Configuration Management Controls – Vulnerability Assessment           Configuration Management                X
 CG-IT-12-17    IATONIS Audit Log Review                                                              Access Controls         X
 CG-IT-12-18    IATONIS Separation of Duties                                                        Segregation of Duties     X



                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 16

                                                                                                                               Appendix B
                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2012

                                                                                                                       New        Repeat
FY 2012 NFR #                                      NFR Title                                 FISCAM Control Area
                                                                                                                       Issue       Issue
 CG-IT-12-19    Functional Configuration Audits of IATONIS System Changes                   Configuration Management    X
 CG-IT-12-21    NESSS User Recertification                                                      Access Controls                     X
 CG-IT-12-22    IATONIS Account Recertification                                                 Access Controls         X


                                              Customs and Border Protection

                                                                                                                       New        Repeat
FY 2012 NFR #                                      NFR Title                                 FISCAM Control Area
                                                                                                                       Issue       Issue
CBP-IT-12-01    Physical Security Issues Identified During Enhanced Security Testing            Access Controls                     X
CBP-IT-12-02    Inadequate Role-Based Security Training Program                               Security Management                   X
CBP-IT-12-03    Segregation of Duties Control Weaknesses within CBP System                      Access Controls                     X
CBP-IT-12-04    CBP System User Profile Change Logs are not Reviewed                            Access Controls                     X
CBP-IT-12-05    CBP System User Profile Change Logs are not Reviewed                            Access Controls                     X
CBP-IT-12-06    Weaknesses in Creating New CBP System Accounts                                  Access Controls                     X
CBP-IT-12-07    CBP System Audit Logs not Appropriately Reviewed                                Access Controls                     X
CBP-IT-12-08    Incomplete Background Re-Investigations for CBP Employees and Contractors     Security Management                   X
CBP-IT-12-09    Contractor NDAs are Incomplete                                                Security Management                   X
CBP-IT-12-10    Lack of Annual Recertification for CBP System Application Users                 Access Controls         X
CBP-IT-12-11    Incomplete Documentation of ISAs for CBP System Connections                     Access Controls         X
CBP-IT-12-12    Inadequate Documentation for CBP System Application Software Changes        Configuration Management    X
                CBP System DB2 Database Patches are not Documented and Implemented
CBP-IT-12-13                                                                                Configuration Management    X
                Appropriately
CBP-IT-12-14    CBP System AIX Operating System Patches are not Implemented Appropriately   Configuration Management    X




                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 17

                                                                                                                                    Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                            New        Repeat
FY 2012 NFR #                                     NFR Title                                       FISCAM Control Area
                                                                                                                            Issue       Issue
                CBP System Production and Training Operating Systems Vulnerability Scanning
CBP-IT-12-15                                                                                     Configuration Management                X
                Process Weaknesses and Scan Results
CBP-IT-12-16    Lack of Access Requests and Approvals for CBP System Accounts                        Access Controls                     X
                Lack of Monitoring Developer Emergency/Temporary Access to CBP System
CBP-IT-12-17                                                                                         Access Controls                     X
                Production
CBP-IT-12-18    Lack of Annual Recertification for CBP System Privileged Users                       Access Controls         X
CBP-IT-12-19    Incomplete Documentation of ISAs for CBP System Connections                          Access Controls                     X
CBP-IT-12-20    Inadequate Documentation for CBP System Application Software Changes             Configuration Management    X
                CBP System LPARs and Linux z/OS Vulnerability Scanning Process Weaknesses
CBP-IT-12-21                                                                                     Configuration Management    X
                and Scan Results
CBP-IT-12-22    CBP System Raised Floor Access Weaknesses                                            Access Controls         X
CBP-IT-12-23    Lack of Functionality in the CBP System                                            Application Controls                  X
CBP-IT-12-24    Inadequate Documentation of CBP System Access Requests                               Access Controls                     X
                Incomplete Access Request Approval Forms for New Remote Access User
CBP-IT-12-25                                                                                         Access Controls                     X
                Account
                CBP System Security Authorization Documentation is Not Documented,
CBP-IT-12-26                                                                                         Access Controls         X
                Approved, and Kept Up-To Date.
CBP-IT-12-27    Separated Personnel on CBP System User Listing                                       Access Controls         X
                Lack of Annual Recertification for CBP System Application, Oracle Database and
CBP-IT-12-28                                                                                         Access Controls         X
                Operating System Account Recertifications
CBP-IT-12-29    CBP System Audit Logs are not Appropriately Reviewed                                 Access Controls         X
CBP-IT-12-30    CBP System Technical Vulnerability Weaknesses                                    Configuration Management    X
CBP-IT-12-31    Lack of Complete Review of CBP System Profile Changes                                Access Controls         X
CBP-IT-12-32    CBP System Vulnerability Scanning Process Weaknesses and Scan Results            Configuration Management    X




                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 18

                                                                                                                                 Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                         New        Repeat
FY 2012 NFR #                                     NFR Title                                    FISCAM Control Area
                                                                                                                         Issue       Issue
                CBP System Configuration Setting for Disabling Inactive Accounts is not
CBP-IT-12-33                                                                                      Access Controls         X
                Configured Appropriately
CBP-IT-12-34    Incomplete Documentation of ISAs for CBP System Connections                       Access Controls         X
                CBP System Oracle Database and Unix Operating Systems Patches are not
CBP-IT-12-36                                                                                  Configuration Management    X
                Documented and Implemented Appropriately
CBP-IT-12-38    Employee Separation Process Weaknesses                                          Security Management                   X
CBP-IT-12-39    Contractor Separation Process Weaknesses                                        Security Management                   X
CBP-IT-12-40    CBP System Segregation of Duties Weaknesses over the Production Environment   Configuration Management                X
                CBP System Security Authorization Documentation is Not Documented,
CBP-IT-12-41                                                                                      Access Controls         X
                Approved, and Kept Up-To Date.
                CBP System Security Authorization Documentation is Not Documented,
CBP-IT-12-42                                                                                      Access Controls         X
                Approved, and Kept Up-To Date.
                CBP System Security Authorization Documentation is Not Documented,
CBP-IT-12-43                                                                                      Access Controls         X
                Approved, and Kept Up-To Date.
                CBP System Program Library Access not Documented and Approved
CBP-IT-12-45                                                                                  Configuration Management    X
                Appropriately.
CBP-IT-12-46    Separated Personnel on CBP System User Listing                                    Access Controls         X
CBP-IT-12-47    Separated Personnel on CBP System User Listing                                    Access Controls                     X
                Separated Personnel on CBP System Application and Operating System User
CBP-IT-12-48                                                                                      Access Controls                     X
                Listing
CBP-IT-12-49    CBP System Audit Log Review Weaknesses                                            Access Controls         X




                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 19

                                                                                                                                  Appendix B
                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2012

                                      Federal Emergency Management Agency
                                                                                                                          New        Repeat
FY 2012 NFR #                                      NFR Title                                    FISCAM Control Area
                                                                                                                          Issue       Issue
FEMA-IT-12-01   Security Awareness Issues Identified during After-Hours Physical Security        Security Management                   X
                Testing at FEMA
FEMA-IT-12-02   All Required Auditable Events Not Included in Traverse Audit Logs                  Access Controls                     X
FEMA-IT-12-03   Inadequate Retention of NFIP LAN Audit Logs                                        Access Controls                     X
FEMA-IT-12-04   Inadequate Documentation Supporting IFMIS-Merger User Functions                    Access Controls                     X
FEMA-IT-12-05   Incomplete Recertification of Traverse Application User Privileges                 Access Controls         X
FEMA-IT-12-06   Weaknesses Identified during the Vulnerability Assessment on IFMIS                Access Controls and                  X
                                                                                               Configuration Management
FEMA-IT-12-07   Weaknesses Identified during the Vulnerability Assessment on the NFIP LAN         Access Controls and      X
                                                                                               Configuration Management
FEMA-IT-12-08   Weaknesses Identified during the Vulnerability Assessment on Financially          Access Controls and      X
                Significant Segments of the FEN and End-User Computing Environment             Configuration Management
FEMA-IT-12-09   Weaknesses Identified during the Vulnerability Assessment on EMMIE                Access Controls and      X
                                                                                               Configuration Management
FEMA-IT-12-10   Weaknesses Identified during the Vulnerability Assessment on NDGrants             Access Controls and      X
                                                                                               Configuration Management
FEMA-IT-12-11   Inconsistent Authorization of New and Modified IFMIS-Merger Application User       Access Controls         X
                Access
FEMA-IT-12-12   Untimely Removal of FEN Access Privileges for Separated FEMA Employees             Access Controls                     X
FEMA-IT-12-13   Incomplete Implementation of Role-Based Training for Individuals with            Security Management                   X
                Significant Information Security Responsibilities
FEMA-IT-12-14   Incomplete POA&Ms for Internal NFIP LAN Vulnerability Assessments              Configuration Management    X
FEMA-IT-12-15   Weaknesses in the Management of POA&Ms for Audit Findings over FEMA              Security Management                   X
                Financial Systems



                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 20

                                                                                                                                  Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                          New        Repeat
FY 2012 NFR #                                     NFR Title                                     FISCAM Control Area
                                                                                                                          Issue       Issue
FEMA-IT-12-16   Inconsistent Review of Audit Logs of IFMIS-Merger System Software                  Access Controls         X
                Administrator Activity
FEMA-IT-12-17   Lack of Adequate Configuration Management over Network Devices Supporting      Configuration Management                X
                Financial Systems
FEMA-IT-12-18   Non-Compliance with DHS Policy for Approval of Shared Accounts on the FEN          Access Controls         X
FEMA-IT-12-19   Non-Compliance with DHS Policy for Approval of Remote Access to the FEN            Access Controls         X
FEMA-IT-12-20   Lack of ISA between FEMA and Department of Justice                                 Access Controls         X
FEMA-IT-12-21   Inadequate Security Authorization Documentation for the FEN                      Security Management                   X
FEMA-IT-12-22   Lack of CMP Documentation for ES                                               Configuration Management    X
FEMA-IT-12-23   Lack of Testing Traverse Application Changes Prior to Implementation           Configuration Management                X
FEMA-IT-12-24   Inconsistent Documentation of TRRP Configuration Changes                       Configuration Management                X
FEMA-IT-12-25   Inconsistent Review of PARS Database Audit Logs                                    Access Controls         X
FEMA-IT-12-26   Lack of BIA Supporting the NDGrants CP                                           Contingency Planning      X
FEMA-IT-12-27   Lack of Alternate Processing Site and Sufficient CP Testing for NDGrants         Contingency Planning      X
FEMA-IT-12-28   Inconsistent Implementation of DHS Background Investigation Requirements for     Security Management                   X
                FEMA Federal Employees and Contractors
FEMA-IT-12-29   Non-Compliance with DHS Policies for IFMIS-Merger Security Authorization         Security Management       X
                Documentation
FEMA-IT-12-30   Lack of Adequate IFMIS-Merger CP and Plan Test Documentation                     Contingency Planning      X
FEMA-IT-12-31   Approval of Elevated Privileges Was Not Consistent with DHS Policy                 Access Controls         X
FEMA-IT-12-32   Lack of EMMIE System Owner Approval for Database Accounts                          Access Controls         X
FEMA-IT-12-33   Incomplete Access Procedures for Operations Branch Database Accounts               Access Controls         X
FEMA-IT-12-34   Lack of ES System Owner Approval for Database Accounts                             Access Controls         X
FEMA-IT-12-35   Lack of NDGrants System Owner Approval for Database Accounts                       Access Controls         X



                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 21

                                                                                                                                    Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                            New        Repeat
FY 2012 NFR #                                     NFR Title                                       FISCAM Control Area
                                                                                                                            Issue       Issue
FEMA-IT-12-36   Inconsistent Review of IFMIS-Merger Application and Database Audit Logs              Access Controls                     X
FEMA-IT-12-37   Insufficient Development and Update of the EMMIE CP                                Contingency Planning      X
FEMA-IT-12-38   Non-Compliance with Alternate Processing Site Requirements for EMMIE               Contingency Planning      X
FEMA-IT-12-39   Insufficient Review and Approval of the ES CP                                      Contingency Planning      X
FEMA-IT-12-40   Non-Compliance with Alternate Processing Site Requirements for ES                  Contingency Planning      X
FEMA-IT-12-41   Incomplete POA&Ms for EMMIE SAR Weaknesses                                         Security Management       X
FEMA-IT-12-42   Non-Compliant Security Authorization Package for NDGrants                          Security Management       X
FEMA-IT-12-43   Non-Compliant Security Authorization Package for ES                                Security Management       X
FEMA-IT-12-44   Incomplete Account Management Procedures for the EMMIE Application                   Access Controls         X
FEMA-IT-12-45   Incomplete Account Management Procedures for NDGrants                                Access Controls         X
FEMA-IT-12-46   Incomplete Account Management Procedures for ES                                      Access Controls         X
FEMA-IT-12-47   Non-Compliance with DHS and FEMA Password Requirements for Oracle                    Access Controls         X
                Databases Supporting Financial Applications
FEMA-IT-12-48   Incomplete Waiver Request for Password Controls on Oracle Databases                  Access Controls         X
                Supporting Financial Applications
FEMA-IT-12-49   Inconsistent Authorization of Temporary Access to IFMIS-Merger System               Access Controls and                  X
                Software                                                                         Configuration Management
FEMA-IT-12-50   Inadequate Monitoring of Configuration Changes Deployed to the IFMIS-Merger      Configuration Management                X
                Production Environment
FEMA-IT-12-51   Inconsistent Activities and Incomplete Documentation Supporting Configuration    Configuration Management    X
                Changes for the IFMIS-Merger Application
FEMA-IT-12-52   Lack of ES Information System Security Officer Review of Monthly Vulnerability   Configuration Management    X
                Scan Results
FEMA-IT-12-53   Insufficient Audit Log Controls for EMMIE                                            Access Controls         X
FEMA-IT-12-54   Insufficient Audit Log Controls for NDGrants                                         Access Controls         X


                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 22

                                                                                                                                 Appendix B
                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2012

                                                                                                                         New        Repeat
FY 2012 NFR #                                       NFR Title                                  FISCAM Control Area
                                                                                                                         Issue       Issue
FEMA-IT-12-55    Insufficient Audit Log Controls for ES                                           Access Controls         X
FEMA-IT-12-56    Incomplete Documentation Supporting EMMIE Configuration Management           Configuration Management    X
                 Controls
FEMA-IT-12-57    Unauthorized Shared Account Usage for EMMIE and NDGrants Production          Configuration Management    X
                 Application Deployments
FEMA-IT-12-58    Lack of Controls to Validate Completeness and Integrity of EMMIE and         Configuration Management    X
                 NDGrants Application Changes Deployed to Production
FEMA-IT-12-59    Incomplete Documentation Supporting NDGrants Configuration Management        Configuration Management    X
                 Controls
FEMA-IT-12-60    Incomplete Vulnerability Management Procedures                               Configuration Management    X
FEMA-IT-12-61    Excessive or Inappropriate Access to IFMIS                                       Access Controls         X


                                     Federal Law Enforcement Training Center

                                                                                                                         New        Repeat
FY 2012 NFR #                                       NFR Title                                  FISCAM Control Area
                                                                                                                         Issue       Issue
FLETC-IT-12-01         Ineffective Segregation of Duties Controls for the Momentum System       Segregation of Duties                 X
FLETC-IT-12-02        FLETC Servers and Workstations have Inadequate Patch Management         Configuration Management    X
MGA-IT-12-03            I&A/Ops Momentum Access Controls are not Consistently Applied             Access Controls         X
MGA-IT-12-04     Configuration Changes for the I&A/Ops Momentum System are not Consistently   Configuration Management    X
                                                 Documented




                                         Information Technology Management Letter for the 

                                 FY 2012 Department of Homeland Security Financial Statement Audit

                                                             Page 23

                                                                                                                                     Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                       Immigration and Customs Enforcement
                                                                                                                             New        Repeat
FY 2012 NFR #                                     NFR Title                                        FISCAM Control Area
                                                                                                                             Issue       Issue
 ICE-IT-12-01   FFMS Network and Servers were Installed with Default Configuration Settings       Configuration Management                X
                and Protocols
 ICE-IT-12-02   FFMS Mainframe Production Databases were Installed and                            Configuration Management                X
                Configured without Baseline Security Configurations
 ICE-IT-12-03   FFMS Servers have Inadequate Patch Management                                     Configuration Management                X
 ICE-IT-12-04   FFMS Access Recertification Reviews are Not Completed                                 Access Controls                     X
 ICE-IT-12-05   Weak FFMA Segregation of Duties                                                     Segregation of Duties                 X
 ICE-IT-12-06   Security Awareness Issues Identified During After-Hours Walkthrough                 Security Management                   X
 ICE-IT-12-07   Lack of Procedures for Transferred/Terminated Personnel Exit Processing               Access Controls                     X
 ICE-IT-12-08   ICE Servers and Workstation have Inadequate Patch Management                          Access Controls                     X
 ICE-IT-12-09   ICE Servers and Workstations were Installed with Default Configuration Settings   Configuration Management    X
                and Protocols
 ICE-IT-12-10   Lack of Recertification for ADEX Users                                                 Access Control         X
 ICE-IT-12-11   Inadequate FFMS User Access Request Forms                                              Access Control         X


                                 National Protection and Programs Directorate

                                                                                                                             New        Repeat
FY 2012 NFR #                                     NFR Title                                        FISCAM Control Area
                                                                                                                             Issue       Issue
NPPD-IT-12-01   Security Awareness Issues Identified During After-Hours Walkthrough                 Security Management       X
NPPD-IT-12-02   Security Awareness Issues were identified during Social Engineering                 Security Management       X




                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 24

                                                                                                                                       Appendix B
                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2012

                Office of Financial Management / Office of Chief Information Officer
                                                                                                                               New        Repeat
FY 2012 NFR #                                        NFR Title                                       FISCAM Control Area
                                                                                                                               Issue       Issue
CONS-IT-12-01   Network Logical Access Parameters are not Configured in Accordance with DHS             Access Controls                     X
                Policy
CONS-IT-12-02   TIER Configuration Management procedures not consistently executed                  Configuration Management    X
CONS-IT-12-03   Security Awareness Issues Identified During After-Hours Walkthrough                   Security Management                   X
OCIO-IT-12-01   DHS has not Fully Implemented the Federal Desktop Core Configuration (FDCC)           Security Management                   X
                Security Configurations Requirements
OCIO-IT-12-02   DHS Physical Controls could be Strengthened                                             Access Controls                     X
OCIO-IT-12-03   DHS Infrastructure Configuration Management procedures not adequately defined       Configuration Management    X
OCIO-IT-12-04   Ineffective safeguards over physical access to sensitive facilities and resources       Access Controls         X


                                        Transportation Security Administration

                                                                                                                               New        Repeat
FY 2012 NFR #                                        NFR Title                                       FISCAM Control Area
                                                                                                                               Issue       Issue
TSA-IT-12-01    Physical Security and Security Awareness Issues identified during enhanced              Access Controls                     X
                security testing
TSA-IT-12-02    Computer Access Agreements                                                              Access Controls                     X
TSA-IT-12-03    eTAS User Account Recertification                                                       Access Controls         X
TSA-IT-12-04    eTAS User Passwords                                                                     Access Controls         X
TSA-IT-12-05    eTAS Restoration Testing of Media Backups                                             Contingency Planning      X
TSA-IT-12-06    eTAS Audit Logs                                                                         Access Controls         X
TSA-IT-12-07    eTAS System User Access                                                                 Access Controls         X
TSA-IT-12-08    Configuration Management Controls Over the Coast Guard Scripting Process            Configuration Management                X


                                         Information Technology Management Letter for the 

                                 FY 2012 Department of Homeland Security Financial Statement Audit

                                                             Page 25

                                                                                                                              Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                      New        Repeat
FY 2012 NFR #                                     NFR Title                                 FISCAM Control Area
                                                                                                                      Issue       Issue
TSA-IT-12-09    eTAS Pre-Implementation Deficiencies                                         Security Management       X


                             United States Citizenship and Immigration Services

                                                                                                                      New        Repeat
FY 2012 NFR #                                     NFR Title                                 FISCAM Control Area
                                                                                                                      Issue       Issue
 CIS-IT-12-01   Policies and Procedures for CLAIMS 3 LAN and CLAIMS 4                          Access Controls                     X
                Audit Logs
 CIS-IT-12-02   Inadequate Access Request Forms for CLAIMS 4 System Users                      Access Controls                     X
 CIS-IT-12-03   Weak Logical Access Controls exist over CLAIMS 4                               Access Controls                     X
 CIS-IT-12-04   Security Awareness Issues Identified during After-Hours Walkthrough          Security Management       X
 CIS-IT-12-05   Lack of Segregation of Duties for CLAIMS 3 LAN                                 Access Controls                     X
 CIS-IT-12-06   Periodic User Access Reviews are not Performed for CLAIMS 3 LAN Users          Access Controls                     X
 CIS-IT-12-07   FFMS Vulnerability Weaknesses Impact USCIS Operations                      Configuration Management                X
 CIS-IT-12-08   Security Awareness Issues were Identified during Social Engineering          Security Management       X
 CIS-IT-12-09   Procedures for Transferred/Terminated Personnel Exit Processing are not        Access Controls                     X
                Finalized
 CIS-IT-12-10   Lack of Policies and Procedures for Separated CLAIMS 3 LAN Accounts            Access Controls                     X
 CIS-IT-12-11   Equipment and Media Policies and Procedures are not Current                    Access Controls                     X
 CIS-IT-12-12   Lack of Computer Security Awareness Training Compliance                      Security Management                   X
 CIS-IT-12-13   Lack Role-Based Training for Key Security Personnel                          Security Management                   X
 CIS-IT-12-14   Lack of ATO for CLAIMS 3 LAN                                                 Security Management       X
 CIS-IT-12-15   Lack of ATO for CLAIMS 4                                                     Security Management       X
 CIS-IT-12-16   Lack of Segregation of Duties Controls Exist over CIS 1                      Segregation of Duties     X



                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 26

                                                                                                                         Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                 New        Repeat
FY 2012 NFR #                                     NFR Title                                FISCAM Control Area
                                                                                                                 Issue       Issue
 CIS-IT-12-17   Visitor Access Controls are Inadequate at the VSC                             Access Controls     X
 CIS-IT-12-18   Inadequate CIS1 Access Request Forms for Temporary Users                      Access Controls     X
 CIS-IT-12-19   Incomplete Recertification for CIS 1 Network Administrators                   Access Controls     X




                                        Information Technology Management Letter for the 

                                FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 27

                                                                              Appendix C
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2012




                                 Appendix C

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                     Recommendations at DHS





                 Information Technology Management Letter for the 

         FY 2012 Department of Homeland Security Financial Statement Audit

                                     Page 28

                                                                                                                           Appendix C
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2012


                                          Customs and Border Protection
                                                                                                                       Disposition
   NFR #                                                        Description
                                                                                                                     Closed   Repeat
CBP-IT-11-01   Security Awareness Issued Identified During Enhanced Security Testing                                   X
CBP-IT-11-02   Physical Security Issues Identified during Enhanced Security Testing                                             X
CBP-IT-11-03   Inadequate Role-based Security Training Program                                                                  X
CBP-IT-11-04   Segregation of Duties Control Weaknesses within the CBP System                                                   X
CBP-IT-11-05   CBP System User Access Profile Change Log Review Procedures Have Not Been Implemented                            X
CBP-IT-11-07   Lack of Monitoring of Developer Emergency/Temporary Access to CBP System Production                              X
CBP-IT-11-08   Lack of Monitoring of CBP System Novell Server Audit Logs                                               X
CBP-IT-11-09   Lack of Update to CBP System Contingency Plan                                                           X
CBP-IT-11-10   Lack of Update to CBP System Security Plan                                                              X
CBP-IT-11-11   Background Investigations and Reinvestigations for CBP Employees and Contractors are not Completed               X
CBP-IT-11-12   Contractor Separation procedures are not Updated and Contractor Separation forms are not Maintained              X
CBP-IT-11-13   Lack of Access Requests and Approval for CBP System Accounts                                                     X
CBP-IT-11-14   CBP System Profile Change Logs are not Reviewed                                                                  X
CBP-IT-11-15   CBP System User Access Form Documentation is Incomplete                                                          X
CBP-IT-11-16   CBP System Privileged User Recertification is Incomplete                                                X
CBP-IT-11-17   Remote User Access Form Documentation is Incomplete                                                              X
CBP-IT-11-18   CBP System Interconnection Security Agreements are Incomplete                                                    X
CBP-IT-11-19   Contractor Non-Disclosure Agreement Weaknesses                                                                   X
CBP-IT-11-20   Employee Separations Weaknesses                                                                                  X
CBP-IT-11-21   CBP System Audit Log Review Weaknesses                                                                           X



                                    Information Technology Management Letter for the 

                            FY 2012 Department of Homeland Security Financial Statement Audit

                                                        Page 29

                                                                                                                Appendix C
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2012

                                                                                                            Disposition
        NFR #                                                           Description
                                                                                                          Closed   Repeat
    CBP-IT-11-22        CBP System User Access Authorization Evidence Weakness                                       X
    CBP-IT-11-23        CBP System Security Test & Evaluation Weakness                                      X
    CBP-IT-11-24        CBP System Configuration Management Policies and Procedures not Finalized           X
    CBP-IT-11-25        CBP System Account Authentication Weaknesses                                        X
    CBP-IT-11-26        CBP System Audit Log Review Weaknesses                                              X
    CBP-IT-11-27        Security Weaknesses Identified during Technical Vulnerability Assessment                     X
    CBP-IT-11-28        Security Posture of CBP Workstations                                                X
    CBP-IT-11-30        Separated Personnel on CBP System User Listings                                              X
    CBP-IT-11-31        CBP System Functionality Issues                                                              X
    CBP-IT-11-32        CBP System User Account Termination Weaknesses                                               X
    CBP-IT-11-33        CBP System Security Test & Evaluation Weakness                                      X
    CBP-IT-11-34        CBP System Security Test & Evaluation Weakness                                      X
    CBP-IT-11-35        Evidence of Personnel Authorization to Access Backup Media Not Available            X
    CBP-IT-11-36        CBP System Recertification Weaknesses                                               X
    CBP-IT-11-37        CBP System Privileged User Access Management Process Weaknesses                     X
    CBP-IT-11-38        CBP System Privileged User Segregation of Duties Weaknesses                                  X

Note 1: NFRs numbers CBP-IT-11-06 and CBP-IT-11-29 were not used in the FY 2011 IT NFR sequence.
Note 2: Specific system names were replaced with “CBP System” for security purposes.




                                             Information Technology Management Letter for the 

                                     FY 2012 Department of Homeland Security Financial Statement Audit

                                                                 Page 30

                                                                                                                                     Appendix C
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2012

                                              United States Coast Guard
                                                                                                                                 Disposition
  NFR #                                                        Description
                                                                                                                               Closed   Repeat
CG-IT-11-01   Security Awareness Issues Associated with Physical Protection of Sensitive Information                                      X
CG-IT-11-02   Direct Access and Direct Access II User and System Administrator Account Management and Approval                   X
CG-IT-11-03   CG-TIER resource owners’ identification of authorized users                                                        X
CG-IT-11-04   Weaknesses Related to IA Professionals’ Required Certifications                                                             X
CG-IT-11-05   Configuration Management Controls over the Scripting Process                                                                X
CG-IT-11-06   Civilian Background Investigations                                                                                          X
CG-IT-11-07   Contractor Background Investigations                                                                                        X
CG-IT-11-08   Security Awareness Issues Associated with the Social Engineering Testing                                                    X
CG-IT-11-09   OSC Data Center Visitor Access Logs                                                                                         X
CG-IT-11-10   Direct Access and Direct Access II Audit Logging and General IT Control Validation                                          X
CG-IT-11-11   AMMIS Software Change Requests Process                                                                                      X
CG-IT-11-12   SAM and NESSS Audit Log Review                                                                                     X
CG-IT-11-13   Direct Access System User Account Recertification                                                                           X
CG-IT-11-14   NESSS Access Authorizations                                                                                                 X
              Lack of Consistent Contractor, Civilian, and Military Account Termination Notification Process for Coast Guard
CG-IT-11-15                                                                                                                               X
              Systems
CG-IT-11-16   Naval & Electronics Supply Support System Users Who Have Admin Capabilities                                        X
CG-IT-11-17   ALMIS User Recertification                                                                                         X
CG-IT-11-18   Non-Compliance with FFMIA – Information Technology                                                                 X
CG-IT-11-19   Weaknesses Associated with the Coast Guard Security Incident Database and Ticket System                            X
CG-IT-11-20   Access and Configuration Management Controls – Vulnerability Assessment                                                     X


                                    Information Technology Management Letter for the 

                            FY 2012 Department of Homeland Security Financial Statement Audit

                                                        Page 31

                                                                                                                Appendix C
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2012

                                                                                                             Disposition
  NFR #                                                           Description
                                                                                                          Closed    Repeat
CG-IT-11-21    Naval and Electronics Supply Support System User Account Recertification                               X


                           United States Citizenship and Immigration Services

                                                                                                            Disposition
  NFR #                                                           Description
                                                                                                          Closed    Repeat
CIS-IT-11-01   Equipment and media policies and procedures are not current                                            X
CIS-IT-11-02   Weak password configuration controls for CLAIMS 4                                            X
CIS-IT-11-03   Policies and procedures for CLAIMS 3 LAN and CLAIMS 4 audit logs                                       X
CIS-IT-11-04   Policies and procedures for separated CLAIMS 3 LAN accounts                                            X
CIS-IT-11-05   Periodic user access reviews are not performed for CLAIMS 3 LAN users                                  X
CIS-IT-11-06   Procedures for transferred/terminated personnel exit processing are not finalized                      X
CIS-IT-11-07   Incomplete or inadequate access request forms for CLAIMS 3 LAN and CLAIMS 4 system users               X
CIS-IT-11-08   ICE resource server and inadequate patch management weaknesses impact USCIS operations       X
CIS-IT-11-09   Weak password configuration controls for CLAIMS 3 LAN                                        X
CIS-IT-11-10   Weak logical access controls exist over CLAIMS 4                                                       X
CIS-IT-11-11   Ineffective safeguards over physical access to sensitive facilities and resources            X
CIS-IT-11-12   VPN access request forms are not properly maintained                                         X
CIS-IT-11-13   Lack of Segregation of Duties for CLAIMS 3 LAN                                                         X
CIS-IT-11-14   ADEX access request forms are not properly maintained                                        X
CIS-IT-11-15   Lack of Computer Security Awareness Training Compliance                                                X
CIS-IT-11-16   Lack role-based training for key security personnel                                                    X
CIS-IT-11-17   FFMS Vulnerability Weaknesses effect USCIS Operations                                                  X


                                      Information Technology Management Letter for the 

                              FY 2012 Department of Homeland Security Financial Statement Audit

                                                          Page 32

                                                                                                                                      Appendix C
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2012

                Office of Financial Management / Office of Chief Information Officer
                                                                                                                                  Disposition
   NFR #                                                         Description
                                                                                                                                Closed   Repeat
CONS-IT-11-01    Network Logical Access Parameters are not Configured in Accordance with DHS policy                                         X
CONS-IT-11-02    Security Awareness issues identified during After-Hours Walkthrough                                                        X
                 DHS has not Fully Implemented the Federal Desktop Core Configuration (FDCC) Security Configurations
OCIO-IT-11-01                                                                                                                               X
                 Requirements
OCIO-IT-11-02    DHS physical controls could be strengthened                                                                                X


                                     Federal Emergency Management Agency

                                                                                                                                  Disposition
   NFR #                                                         Description
                                                                                                                                Closed   Repeat
FEMA-IT-11-01    Alternate Processing Site for NEMIS Has Not Been Established                                                     X
                 Weaknesses Exist in the C&A Package for the FEMA Switched Network (FSN)-2, which Includes the FEMA
FEMA-IT-11-02                                                                                                                               X
                 LAN
FEMA-IT-11-03    Weaknesses Exist over the ATO and C&A Documentation for NEMIS                                                    X
                 NEMIS CP Does Not Comprehensively Address the Requirements of DHS Policy and Has Not Been
FEMA-IT-11-04                                                                                                                     X
                 Adequately Tested
                 Formalized Training Requirements for Individuals with Significant Information Security Responsibilities Have
FEMA-IT-11-05                                                                                                                               X
                 Not Been Fully Implemented and Role-Based Training is Not Tracked or Monitored
FEMA-IT-11-06    Documentation Supporting IFMIS-Merger User Functions Does Not Exist                                                        X
                 Oracle Databases Supporting Financial Applications within the Previous NEMIS Accreditation Boundary are
FEMA-IT-11-07                                                                                                                     X
                 Not Configured to Enforce Password Requirements
                 Oracle Databases Supporting Financial Applications within the Previous NEMIS Accreditation Boundary Do
FEMA-IT-11-08                                                                                                                     X
                 Not Adequately Enforce Account Lockout Requirements



                                       Information Technology Management Letter for the 

                               FY 2012 Department of Homeland Security Financial Statement Audit

                                                           Page 33

                                                                                                                                Appendix C
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2012

                                                                                                                            Disposition
   NFR #                                                       Description
                                                                                                                          Closed   Repeat
                Operating System Audit Logging on Servers Supporting Financial Applications within the Previous NEMIS
FEMA-IT-11-09                                                                                                               X
                Accreditation Boundary is Not Adequate
                Weaknesses Existed over Contingency Planning, Testing and Development of the Continuity of Operations
FEMA-IT-11-10                                                                                                               X
                Plan for TRRP and Traverse
FEMA-IT-11-11   Recertification of NEMIS Access Control System Position Assignments is Incomplete                           X
                Audit Logging on Databases Supporting Financial Applications within the Previous NEMIS Accreditation
FEMA-IT-11-12                                                                                                               X
                Boundary is Not Adequate
                Weaknesses Exist over Vulnerability Management for Servers Supporting Financial Applications within the
FEMA-IT-11-13                                                                                                               X
                Previous NEMIS Accreditation Boundary
FEMA-IT-11-14   NFIP Physical Access Policies and Procedures were Not Appropriately Documented and Implemented              X
FEMA-IT-11-15   NFIP LAN and Traverse Account Security Configuration Is Not in Compliance with DHS Policy                   X
FEMA-IT-11-16   TRRP Logical Access was Not Appropriately Authorized                                                        X
FEMA-IT-11-17   Weaknesses Exist over Configuration and Operating Effectiveness of Traverse Audit Logs                                X
FEMA-IT-11-18   Inadequate Monitoring of Configuration Changes Deployed to the IFMIS-Merger Production Environment                    X
                Weaknesses Exist over Configuration Management Processes for Financial Applications within the Previous
FEMA-IT-11-19                                                                                                               X
                NEMIS Accreditation Boundary
FEMA-IT-11-20   Weaknesses Exist over IFMIS-Merger Configuration Management Processes                                       X
FEMA-IT-11-21   Weaknesses Exist over Recertification of Access to the IFMIS-Merger Application                             X
FEMA-IT-11-22   Weaknesses Exist over TRRP Mainframe Audit Logs                                                             X
FEMA-IT-11-23   Emergency and Temporary Access to IFMIS-Merger is Not Properly Authorized                                             X
FEMA-IT-11-24   Weaknesses Exist over IFMIS-Merger Application and Database Audit Logging                                             X
FEMA-IT-11-25   IFMIS–Merger User Access was Not Managed in Accordance with Account Management Procedures                   X
FEMA-IT-11-26   PARS Database Security Controls Are Not Appropriately Established                                           X
FEMA-IT-11-27   NFIP LAN Audit Logging is Not Performed in Accordance with DHS and FEMA Requirements                                  X



                                     Information Technology Management Letter for the 

                             FY 2012 Department of Homeland Security Financial Statement Audit

                                                         Page 34

                                                                                                                                Appendix C
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2012

                                                                                                                            Disposition
   NFR #                                                       Description
                                                                                                                          Closed   Repeat
                Individual User Virtual Private Network (VPN) Access Accounts are Not Appropriately Authorized or
FEMA-IT-11-28                                                                                                               X
                Recertified
FEMA-IT-11-29   External Connections to the FEMA VPN Are Not Appropriately Authorized or Documented                         X
FEMA-IT-11-30   IFMIS-Merger System Software Administrator Activity Is Not Appropriately Restricted or Monitored            X
FEMA-IT-11-31   Weaknesses Exist over C&A Documentation for IFMIS-Merger                                                    X
FEMA-IT-11-32   Risk Assessment Activities over NFIP IT Systems were Not Adequately Performed                               X
FEMA-IT-11-33   Weaknesses Exist over Management and Technical Controls Associated with FEMA LAN Accounts                             X
FEMA-IT-11-34   Employee Termination Process for Removing System Access Should Be More Proactive                            X
FEMA-IT-11-35   Traverse Configuration Management Plan Weaknesses                                                                     X
FEMA-IT-11-36   TRRP Configuration Management Plan Weaknesses                                                                         X
FEMA-IT-11-37   Documentation Supporting TRRP Test Libraries Does Not Reflect Current Environment                           X
FEMA-IT-11-38   Federal Insurance and Mitigation Administration CMP has Not Been Developed                                  X
FEMA-IT-11-39   Weaknesses Exist over Background Investigations for Federal Employees and Contractors                                 X
FEMA-IT-11-40   Weaknesses in the Management of POA&Ms for Audit Findings over FEMA Financial Systems                                 X
FEMA-IT-11-41   Physical Security and Security Awareness Issues Associated with Enhanced Security Testing at FEMA                     X
FEMA-IT-11-42   Traverse Accounts Were Not Appropriately Recertified                                                        X
FEMA-IT-11-43   Lack of Adequate Configuration Management over Network Devices Supporting Financial Systems                           X
                Password, Patch, and Configuration Management Weaknesses Were Identified during the Vulnerability
FEMA-IT-11-44                                                                                                                         X
                Assessment on IFMIS, NEMIS, and Key Support Servers
FEMA-IT-11-45   Vulnerability Assessment Program for the NFIP LAN Supporting Traverse was Inadequate                        X
FEMA-IT-11-46   Weaknesses Existed over the Configuration Patch Management Process for the NFIP LAN Supporting Traverse     X
                Weaknesses Exist over the Configuration and Testing of Backups for Servers Supporting Financial
FEMA-IT-11-47                                                                                                               X
                Applications within the Previous NEMIS Accreditation Boundary



                                      Information Technology Management Letter for the 

                              FY 2012 Department of Homeland Security Financial Statement Audit

                                                          Page 35

                                                                                                                                    Appendix C
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                                Disposition
    NFR #                                                        Description
                                                                                                                              Closed    Repeat
                 Key Controls over Production Servers Supporting Applications within the Former NEMIS Accreditation
FEMA-IT-11-48                                                                                                                   X
                 Boundary Have Not Been Implemented


                                   Federal Law Enforcement Training Center

                                                                                                                                 Disposition
    NFR #                                                        Description
                                                                                                                              Closed    Repeat
FLETC-IT-11-01   Ineffective Logical Access Controls over the GAN                                                               X
FLETC-IT-11-02   Ineffective Segregation of Duties controls for the Momentum System                                                           X


                                      Immigration and Customs Enforcement

                                                                                                                                 Disposition
    NFR #                                                        Description
                                                                                                                              Closed    Repeat
 ICE-IT-11-01    ADEX Resource Servers and Workstations have Inadequate Patch Management                                                      X
 ICE-IT-11-02    Terminated/Transferred Personnel are not Removed from ADEX in a Timely Manner                                  X
 ICE-IT-11-03    Access Recertification Review is not completed for FFMS                                                                      X
 ICE-IT-11-04    Weak FFMS Segregation of Duties                                                                                              X
 ICE-IT-11-05    Security Awareness issues were identified during Social Engineering                                            X
 ICE-IT-11-06    FFMS Network and Servers were installed with Default Configuration Settings and Protocols                                    X
 ICE-IT-11-07    FFMS Mainframe Production databases were installed and configured without baseline security configurations                   X
 ICE-IT-11-08    FFMS servers have inadequate patch management                                                                                X
 ICE-IT-11-09    Default installation and configuration of Cisco routers on ICE Network                                         X
 ICE-IT-11-10    Security Awareness issues identified during After-Hours Walkthrough                                                          X


                                       Information Technology Management Letter for the 

                               FY 2012 Department of Homeland Security Financial Statement Audit

                                                           Page 36

                                                                                                                   Appendix C
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2012

                                                                                                                Disposition
   NFR #                                                        Description
                                                                                                             Closed    Repeat
ICE-IT-11-11   Lack of procedures for transferred/terminated personnel exit processing                                    X


                                    Transportation Security Administration

                                                                                                                Disposition
  NFR No.                                                       Description
                                                                                                             Closed    Repeat
TSA-IT-11-01   Markview – Password Settings                                                                    X
TSA-IT-11-02   Markview – Administrator Account                                                                X
TSA-IT-11-03   Physical Security and Security Awareness Issues Identified during Enhanced Security Testing                X
TSA-IT-11-04   TSA Computer Access Agreement Process                                                                      X
TSA-IT-11-05   Sunflower and Markview User Account Recertifications                                            X
TSA-IT-11-06   Configuration Management Controls Over the Coast Guard Scripting Process                                   X




                                     Information Technology Management Letter for the 

                             FY 2012 Department of Homeland Security Financial Statement Audit

                                                         Page 37

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
